GENERAL SERVICES ADMINISTRATION
   OFFICE OF INSPECTOR GENERAL



                    Recovery Act Report –
    50 UN Plaza Renovation Project Construction Contract
    Review of PBS’s Major Construction and Modernization
        Projects Funded by the American Recovery and
                   Reinvestment Act of 2009
              Audit Number A090172/P/R/R10005

                       May 27, 2010
Date:            May 27, 2010

Reply to         R. Nicholas Goco
Attn of:         Deputy Assistant Inspector General
                 For Real Property Audits (JA-R)

Subject:         Recovery Act Report –
                 50 UN Plaza Renovation Project Construction Contract
                 Review of PBS’s Major Construction and Modernization Projects Funded by the
                 American Recovery and Reinvestment Act of 2009
                 Audit Number A090172/P/R/R10005

To:              Robert A. Peck
                 Commissioner, Public Buildings Service (P)

As part of our oversight of the General Services Administration’s American Recovery and
Reinvestment Act projects, we identified an issue related to the 50 United Nations (UN) Plaza
renovation project which we believe warrants your attention. Our review found that the
Construction Manager as Constructor (CMc) contracting approach was incorrectly executed.
Because the pricing for the construction portion of the contract was not evaluated as part of the
original award, a Guaranteed Maximum Price was not established. As a result, the Construction
Phase Services of the contract became an unpriced option which cannot be exercised without
proper statutory authority permitting the use of other than full and open competition.

We initially reported this matter to you in a draft report issued March 15, 2010.                  We
recommended that PBS:

      1) Consider holding a competition for the Construction Phase Services of this project rather
         than using sole source procurement.

      2) If a competition is not held, ensure that all policies, rules, and regulations for sole source
         contracts are followed.

Subsequently, PBS exercised the contract’s construction option on March 23, 2010, and
established a Guaranteed Maximum Price of $92,600,650. The Management Comments to the
draft report (see Appendix A) acknowledged the findings, but did not address the
recommendations. If the recommendations were not followed, the procurement potentially
violates the competition requirements as prescribed in the Federal Acquisition Regulation (FAR).
The comments also state that PBS is planning to prepare a determination and findings (D&F) to
document its decision; however, this may be deficient as the FAR states that a D&F is to justify a
contract action based on the appropriate statute or regulation prior to award rather than after the
fact.
Background

The American Recovery and Reinvestment Act of 2009 (Recovery Act) provides the General
Services Administration (GSA) with $5.55 billion for the Federal Buildings Fund. In accordance
with the Recovery Act, the GSA Public Buildings Service (PBS) is using these funds to convert
Federal buildings into High-Performance Green Buildings as well as to construct Federal
buildings, courthouses, and land ports of entry. The Recovery Act mandates that $5 billion of
the funds must be obligated by September 30, 2010, and that the remaining funds be obligated by
September 30, 2011. The GSA Office of Inspector General (OIG) is conducting oversight of the
projects funded by the Recovery Act.

The work on the 50 UN Plaza renovation project began prior to the passage of the Recovery Act.
However, after the Recovery Act was enacted, the agency selected this project as part of the
High Performance Green Building Modernization projects under the Recovery Act and allocated
$121,033,000 of funds to the project. As of February 10, 2010, PBS had awarded contracts
totaling $17,959,816 and had $103,073,184 in Recovery Act funds remaining.


Construction Phases Services Are an Unpriced Option

According to the original solicitation for the 50 UN Plaza renovation project dated September
23, 2009, the contract was awarded as a CMc contract with a Guaranteed Maximum Price.
Generally, this type of contract is initially awarded for design phase services 1 at a firm fixed
price with an option for Construction Phase Services at a Guaranteed Maximum Price that is
established at contract award. The Guaranteed Maximum Price acts as a ceiling price for the
actual construction phase services. The proposed Guaranteed Maximum Price should be
evaluated along with the pricing for the design services in order for the award to be made.

However, on November 6, 2009, PBS issued an amendment to the solicitation that stated, ”The
Option for Construction Phase Work will be negotiated at a later time and is not part of the price
evaluation.” As such, the Design Phase Services and the Preliminary Demolition and Hazardous
Materials Abatement were awarded on December 17, 2009, for a firm fixed price of $3,372,661,
but the Construction Phase Services were not evaluated and a Guaranteed Maximum Price was
not established.

As a result, the Construction Phase Services became an unpriced option. According to the
General Services Acquisition Manual 536.270, before an unpriced option can be exercised, the
agency must cite the statutory authority permitting the use of other than full and open
competition (i.e. such as unusual and compelling urgency or one responsible offeror).

Awarding the CMc contract in this manner not only deviates from PBS’s prescribed
methodology for CMc procurements, but is contrary to the Recovery Act guidance issued by the


1
 Design Phase Services include activities such as ensuring the design complies with applicable regulations, codes,
and standards as well as ensuring the constructability of the design.


                                                         2
Office of Management and Budget 2 . This guidance states, “To the maximum extent practicable,
contracts using Recovery Act funds shall be awarded as fixed-price contracts (See FAR Subpart
16.2) using competitive procedures.”

This is the second time that we have reported that CMc contracts have been awarded without
establishing a Guaranteed Maximum Price. Without a Guaranteed Maximum Price, the
government loses the benefits of establishing a price based on competition and establishing a
fixed amount limiting the Government’s financial obligation for Construction Phase Work.

We appreciate the support that has been provided throughout this review. If you have any
questions about this memorandum, please contact me on (202) 219-0088.


Sincerely,




R. Nicholas Goco
Deputy Assistant Inspector General for Real Property Audits (JA-R)




2
 OMB Memo M-09-15, entitled “Updated Implementing Guidance for the American Recovery and Reinvestment
Act of 2009” dated April 3, 2009.


                                                   3
                Recovery Act Report –
50 UN Plaza Renovation Project Construction Contract
Review of PBS’s Major Construction and Modernization
    Projects Funded by the American Recovery and
               Reinvestment Act of 2009
          Audit Number A090172/P/R/R10005

              Management Comments




                        A-1
                                  Recovery Act Report –
                  50 UN Plaza Renovation Project Construction Contract
                  Review of PBS’s Major Construction and Modernization
                      Projects Funded by the American Recovery and
                                 Reinvestment Act of 2009
                            Audit Number A090172/P/R/R10005

                             Objectives, Scope, and Methodology

Objectives:

The objective of the OIG’s Recovery Act oversight is to determine if PBS is planning, awarding,
and administering contracts for major construction and modernization projects in accordance
with prescribed criteria and Recovery Act mandates. The work for this report was performed
while evaluating the award for the construction of the 50 UN Plaza renovation project.

Scope:

The work for this report was performed between February 2010 and March 2010.

Methodology

To accomplish the objective we conducted fieldwork in the Pacific Rim Region, reviewed the
contract file and other pertinent project documents, met with project staff, and reviewed
applicable guidance and regulations.

Except as noted below, we conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.

The planning for this review is based on the audit plan for oversight of the Recovery Act projects
as well as review guidance being applied to all Recovery Act projects. A separate guide was not
prepared for this project.

As this work was performed under the continuing oversight of all GSA Recovery Act projects,
management controls are currently under assessment. Only those management controls
discussed in the report have been assessed.




                                               B-1
                                  Recovery Act Report –
                  50 UN Plaza Renovation Project Construction Contract
                  Review of PBS’s Major Construction and Modernization
                      Projects Funded by the American Recovery and
                                 Reinvestment Act of 2009
                            Audit Number A090172/P/R/R10005

                                      Report Distribution


Commissioner, Public Buildings Service (P)

Regional Commissioner, Public Buildings Service (9P)

Director, Internal Control and Audit Division (BEI)

Assistant Inspector General for Auditing (JA, JAO)

Regional Inspector General for Investigations (JI-9)

Regional Inspector General for Audits (JA-9)

Assistant Inspector General for Investigations (JI)




                                               C-1
